Department of Homeland Security
   Office of Inspector General

 Federal Emergency Management Agency's Capabilities to 
 

 Oversee American Recovery and Reinvestment Act of 2009 
 

                    Grant Programs
 





      American Recovery and Reinvestment Act of 2009
 





OIG-10-66                                                 March 2010
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                              Homeland
                                                              Security
                                       MAR 1 5 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (GIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities for programs, grants, and
projects awarded by the department under the American Recovery and Reinvestment Act
of 2009 to promote economy, efficiency, and effectiveness within the department.

This report discusses the department's capabilities to manage funds appropriated by the
American Recovery and Reinvestment Act of 2009 and identifies issues that should be
addressed by the department and its components to improve the management of those
funds. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     ~~v<:~(
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1
 


Background ........................................................................................................................ 2 
 


Results of Review .............................................................................................................. 5 
 


     Processes Used to Manage and Oversee Recovery Act Funds ..................................... 5 
 

     Recommendations ........................................................................................................ 7 
 

     Management Comments and OIG Analysis ................................................................ 7 
 


     Internal Controls for Managing and Overseeing Recovery Act Funds......................... 8 
 

     Recommendations ...................................................................................................... 11 
 

     Management Comments and OIG Analysis .............................................................. 11 
 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 14 
 

     Appendix B:           Management Comments to the Draft Report ..................................... 16 
 

     Appendix C:           Major Contributors to This Report .................................................... 20 
 

     Appendix D:           Report Distribution ............................................................................ 21 
 


Abbreviations
     DHS                   Department of Homeland Security 
 

     FEMA                  Federal Emergency Management Agency 
 

     FY                    Fiscal Year            
         

     OIG                   Office of Inspector General 
 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Public Law 111-5, American Recovery and Reinvestment Act of
                   2009 (the “Recovery Act”), provided $610 million in grant funds
                   to the Federal Emergency Management Agency for the Emergency
                   Food and Shelter, Port Security, Public Transportation Security
                   and Railroad Security Assistance, and Firefighters Assistance grant
                   programs. Our objective was to determine whether the Federal
                   Emergency Management Agency has the capability, including
                   processes, internal controls, and personnel, to ensure the effective
                   and efficient use of these grant funds.

                   The Federal Emergency Management Agency generally has the
                   capability to ensure the effective and efficient use of Recovery Act
                   funds. However, there are areas where the agency can improve its
                   processes and internal controls for managing and overseeing
                   Recovery Act funds. If the Federal Emergency Management
                   Agency collects and reports information for a Recovery Act grant
                   program, as it does for non-Recovery Act grants, it will be able to
                   demonstrate the impact Recovery Act funds are having in the most
                   affected regions of the country. The Federal Emergency
                   Management Agency needs to ensure its grantees submit
                   documentation required by the Recovery Act, and update financial
                   and program monitoring plans as appropriate to include Recovery
                   Act requirements.

                   In addition, the Federal Emergency Management Agency can
                   improve its oversight of Recovery Act funds by providing grant
                   program managers and employees with fraud prevention training
                   and by obtaining direct access to a grantee’s tracking system.

                   We are making five recommendations to the Administrator of the
                   Federal Emergency Management Agency to improve the
                   management and oversight of Recovery Act funds. In its
                   comments on a draft of this report, the Federal Emergency
                   Management Agency concurred with all five recommendations and
                   provided information on actions implemented or proposed to
                   address them. A copy of the comments in their entirety is in
                   Appendix B.


          Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

               American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                           Page 1
 

Background
                 The American Recovery and Reinvestment Act of 2009 (Recovery
                 Act), enacted on February 17, 2009, allocated almost $787 billion
                 to preserve and stimulate economic growth in the United States.
                 To help accomplish this objective, the Recovery Act made
                 supplemental appropriations to federal departments and agencies
                 for job preservation and creation, infrastructure investment, energy
                 efficiency and science, assistance to the unemployed and disabled
                 veterans, and state and local stabilization for the fiscal year ending
                 September 30, 2009. The Department of Homeland Security
                 (DHS) received approximately $2.8 billion for equipment,
                 construction, infrastructure improvement, and emergency
                 management grants.

                 The Federal Emergency Management Agency (FEMA) received
                 $610 million in Recovery Act funds for four of its grant programs,
                 listed in Table 1:

                                                     Table 1
                                         FEMA Recovery Act Funds

                                  Grant Programs                          Funds (Millions)

                            Emergency Food and Shelter                         $100
                              Public Transportation and
                                                                               $150
                             Railroad Security Assistance
                                     Port Security                             $150

                           Assistance to Firefighters Grants                   $210

                                        Total                                  $610

                 Source: The American Reinvestment and Recovery Act of 2009


                 Emergency Food and Shelter National Board Program

                 The Emergency Food and Shelter Program, established by
                 Congress in 1983, was designed to feed and shelter hungry and
                 homeless people through local private, nonprofit, and government
                 organizations. Emergency Food and Shelter Program objectives
                 are to allocate funds to the neediest areas, ensure fast response,
                 foster public-private sector partnerships, ensure local decision
                 making, and maintain minimal but accountable reporting. Grant
                 recipients are to use the funds for a broad range of services,
                 including mass shelter and feeding, food distribution through food
                 pantries and banks, 1-month assistance with rent and mortgage to

        Review of Federal Emergency Management Agency’s Capabilities to Oversee

             American Recovery and Reinvestment Act of 2009 Grant Programs 


                                         Page 2

         prevent evictions, utility payments, and assistance with
         transitioning the homeless from shelters to stable living conditions.

         On April 9, 2009, FEMA obligated all $100 million in Recovery
         Act funds allocated for this purpose to the Emergency Food and
         Shelter National Board. The National Board (grantee) is in the
         process of notifying qualifying jurisdictions of award eligibility.
         The National Board will award these funds directly to the local
         agency providers based on plans submitted by local boards.
         United Way of America is the secretariat and fiscal agent for the
         program.

         Public Transportation and Railroad Security Assistance Grant
         Program (Transit Security Grant Program)

         The Transit Security Grant Program, described in the Recovery
         Act as Public Transportation and Railroad Security Assistance,
         focuses on the use of visible, unpredictable deterrents to reduce
         risk to transit systems. Transit Security Grants will fund canine
         teams, mobile explosives detection screening teams, and anti-
         terrorism teams. In addition, Transit Security Grants will fund
         capital projects including Multi-User High-Density Key
         Infrastructure Protection, Single-User High-Density Key
         Infrastructure Protection, Key Operating Asset Protection, and
         other mitigation activities. In its program-specific Recovery Act
         Plan for the Transit Security Grant Program, FEMA detailed the
         schedule for awarding funds as shown in Table 2:

                                                Table 2
                            Transit Security Grant Recovery Act Plan
                              Action                               Date (s)
                    Outreach to Stakeholder to
                                                         February 17 – May 20, 2009
                            Solicit Input
                    Grant Guidance Released to
                                                               May 21, 2009*
                      Prospective Applicants
                    Receipt of Applications and
                                                          June 16 – August 31, 2009
                     National Review Process
                    Allocations Announced and                   October 15 –
                        Awards Processed                     December 31, 2009
         Source: Transit Security Recovery Act Plans, May 15, 2009 

         *Officially Issued May 29, 2009 



         Port Security Grants

         The Port Security Grant Program is one tool in a comprehensive
         set of measures designed to strengthen the Nation’s critical
         infrastructure against risks associated with potential terrorist

Review of Federal Emergency Management Agency’s Capabilities to Oversee

     American Recovery and Reinvestment Act of 2009 Grant Programs 


                                  Page 3

         attacks. The funds are used to strengthen our Nation’s ports and
         stimulate the economy. Port Security Grant Program funds will
         support increased port-wide risk management, enhanced domain
         awareness, and increased capabilities to prevent, detect, respond to,
         and recover from attacks involving improvised explosive devices,
         weapons of mass destruction, and other non-conventional
         weapons. In the program-specific Recovery Act Plan for the Port
         Security Grant Program, FEMA detailed the schedule for awarding
         funds as shown in Table 3:

                                               Tab
                                                ablle 3
                              Port Security Grant Recovery Act Plan
                              Action                                Date(s)
                    Outreach to Stakeholder to
                                                          February 17 – May 20, 2009
                            Solicit Input
                    Grant Guidance Released to
                                                                May 21, 2009*
                      Prospective Applicants
                    Receipt of Applications and
                                                           July 3 – August 31, 2009
                     National Review Process
                    Allocations Announced and                    October 15 –
                        Awards Processed                      December 31, 2009
         Source: Port Security Recovery Act Plans, May 15, 2009
         *Officially Issued May 29, 2009

         Assistance to Firefighters Grants

         The Assistance to Firefighters Fire Station Construction Grants is a
         unique program designed to modify and construct nonfederal fire
         stations. Fire Station Construction Grants provide financial
         assistance directly to fire departments on a competitive basis to
         build new or modify existing fire stations to enhance their response
         capabilities and protect the communities they serve from fire and
         fire-related hazards. The primary goal of the program is to help
         fire departments meet their firefighting and emergency response
         needs. Fire Station Construction Grants seek to support
         organizations that do not have the tools and resources necessary to
         effectively protect the health and safety of the public and their
         emergency response personnel in the event of fire and all other
         hazards. In its Recovery Act Plan, the Assistance to Firefighters
         Grant Program documents its delivery schedule for awarding funds
         as shown in Table 4:




Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                  Page 4
 

                                                        Table 4
                                Assistance to Firefighters Grants Recovery Act Plan

                                        Action                                      Date(s)
                             Outreach to Stakeholder to
                                                                         February 17 – May 20, 2009
                                     Solicit Input
                             Grant Guidance Released to
                                                                                May 21, 2009*
                               Prospective Applicants
                             Receipt of Applications and
                                                                         July 2 – September 29, 2009
                              National Review Process
                             Allocations Announced and                          October 15 –
                                 Awards Processed                             December 31, 2009
                  Source: Assistance to Firefighters Grants Recovery Act Plan, May 15, 2009
                  *Officially Issued May 29, 2009



Results of Review
          FEMA generally has the capability to ensure the effective and efficient use
          of Recovery Act funds. However, there are areas where FEMA can
          improve its processes and internal controls for managing and overseeing
          Recovery Act funds. If FEMA collects and reports information for a
          Recovery Act grant program, as it does for non-Recovery Act grants, it
          will be able to demonstrate the impact Recovery Act funds are having in
          the most affected regions of the country. FEMA needs to ensure its
          grantees submit documentation required by the Recovery Act; and the
          agency also needs to update financial and program monitoring plans as
          appropriate to include Recovery Act requirements.

          In addition, the Federal Emergency Management Agency can improve its
          oversight of Recovery Act funds by providing grant program managers
          and employees with fraud prevention training and by obtaining direct
          access to a grantee’s tracking system.

     Processes Used to Manage and Oversee Recovery Act Funds
          FEMA implemented a number of processes to manage and oversee
          Recovery Act funds; however, there are opportunities for improvement.
          Specifically, one of FEMA’s program-specific Recovery Act Plans does
          not collect information on how recipients are using Recovery Act funds,
          and FEMA grant programs’ Recovery Act Guidance and Application Kits
          for prospective applicants were missing Recovery Act guidance and
          reporting requirements.

          FEMA’s Recovery Act plan did not include a provision to collect or report
          information that will demonstrate how Recovery Act funds assist

         Review of Federal Emergency Management Agency’s Capabilities to Oversee
              American Recovery and Reinvestment Act of 2009 Grant Programs

                                           Page 5
 distressed communities, even though one of the main purposes of the
 Recovery Act is to help those most hurt by the recession, including
 unemployed individuals who are having difficulties providing for
 themselves and their families. Specifically, FEMA does not plan to
 collect information on the number of meals or nights of lodging the funds
 will provide, or the amount of rent, mortgage, or utility payments the
 funds will cover. Based on the Emergency Food and Shelter Program’s
 Recovery Act Plan, FEMA has typically captured this type of information
 to show program accomplishments since 1990. In its Recovery Act Plan,
 FEMA officials said that meeting the Recovery Act’s reporting
 requirements will require a significant increase in the amount of
 administrative work on the part of sub-grantees. Many may not have the
 personnel to accomplish this additional reporting.

 FEMA also did not incorporate all Recovery Act requirements in its grant
 guidance and did not always require applicants to provide essential
 Recovery Act information. Although Port Security, Transit Security, and
 Assistance to Firefighters Grant Program Guidance and Application Kits
 were comprehensive and included most of the applicable Recovery Act
 requirements, the following were not included in these documents:

 •	 The Port Security Grant Program investment justification template
    does not require the applicant to identify the number of jobs the funds
    will help retain or give instructions on how to determine this
    information. The template requires only that the applicant identify the
    number of jobs that the project will create.

 •	 The Transit Security Grant Program investment justification template
    does not require the applicant to identify the number of jobs created or
    retained.

 •	 The Assistance to Firefighters Grant Program guidance does not 

    address Recovery Act Section 1553, Whistleblower Protection. 

    Section 1553 prohibits nonfederal employers, who receive covered 

    funds, from discharging, demoting, or discriminating against 

    employees in reprisal for disclosing certain covered information to 

    certain categories of officials. 


 •	 The Assistance to Firefighters Grant Program guidance does not 

    include recipient responsibilities for monitoring award activities, 

    including subawards, to provide reasonable assurance the federal 

    award complies with Recovery Act requirements. 


 •	 In response to energy efficiency and green building requirements 

    included in Office of Management and Budget Memorandum 


Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                 Page 6
 

     M-09-15, Updated Implementing Guidance for the American Recovery
     and Reinvestment Act of 2009, FEMA stipulated in its grant guidance
     that applicants include environmental and historic preservation
     requirements before they expend funds. The Port Security, Transit
     Security, and Assistance to Firefighters Grant Programs environment
     guidance and spreadsheet instruction sections require applicants to list
     instances when using an Energy Star or Federal Energy Management
     Program Label product is not cost effective. However, they do not
     require applicants to provide an explanation or justification for why
     the product is not cost effective or not reasonably available.

 Recommendations
         We recommend that the Administrator, Federal Emergency
         Management Agency:

         Recommendation #1: Implement a process to collect and report
         information for the Emergency Food and Shelter Program on the
         number of meals provided, nights of lodging provided, rent and
         mortgage payments made, and utility payments made to assess
         how Recovery Act funds are assisting communities affected by the
         economy.

         Recommendation #2: Ensure grantees are made aware of and
         comply with required Recovery Act and Office of Management
         and Budget guidance mentioned above.

 Management Comments and OIG Analysis
         FEMA provided formal written comments on a draft of this report.
         In its comments, FEMA concurred with all five recommendations
         and provided information on actions implemented or proposed to
         address them. We have incorporated a copy of the comments in
         their entirety in Appendix B.

         Management Comments to Recommendation #1: FEMA
         concurred with this recommendation and stated that a process is in
         place to collect and report the information. Each fiscal year, sub-
         recipients report on the number of meals provided; number of bed
         nights provided; and number of rent, mortgage, and utility bills
         paid with Emergency Food and Shelter Program funding as part of
         their Final Reports to the grantee. The data in these reports are
         entered into the Emergency Food and Shelter database maintained
         by the grantee’s fiscal agent (United Way Worldwide) and are used


Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                 Page 7
 

             to estimate the total amount of goods and services provided with
             Emergency Food and Shelter funding during a fiscal year.

             OIG Analysis: FEMA’s assertion that it has already implemented
             a process to collect and report information regarding the
             Emergency Food and Shelter Program satisfies the intent of this
             recommendation. This recommendation is resolved but will
             remain open until FEMA provides documentation to validate that
             the process is being used to collect and report information on the
             use of Recovery Act funds.

             Management Comments to Recommendation #2: FEMA
             concurred with this recommendation and stated that it has made
             grantees aware of required Recovery Act and Office of
             Management and Budget guidance, including all reporting
             requirements. FEMA stated that it has held multiple conference
             calls and training sessions and has sent out informational bulletins
             to all grantees, outlining in detail the requirements of the Recovery
             Act and Office of Management and Budget guidance.

             OIG Analysis: FEMA’s response satisfies the intent of the
             recommendation with respect to Energy Star, environmental and
             historic preservation, and Recovery Act Section 1553
             Whistleblower provisions. However, the response is unclear
             regarding Recovery Act Section 1512 requirements for Port
             Security Grant Program job retention, Transit Security Grant
             Program job creation and retention, and Assistance to Firefighter
             recipient monitoring provisions. This recommendation is resolved
             but will remain open pending FEMA’s verification that grantees
             have been made aware of and are complying with these Recovery
             Act Section 1512 provisions.


Internal Controls for Managing and Overseeing Recovery Act
Funds
     FEMA implemented a number of internal controls to manage and oversee
     Recovery Act funds; however, internal controls could be enhanced for
     financial and program monitoring, fraud training, and access to a grantee’s
     tracking system.

             Financial and Program Monitoring

             Monitoring plans are designed to ensure grantees are using funds
             for their intended purpose. As shown in Table 5, FEMA has not

    Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

         American Recovery and Reinvestment Act of 2009 Grant Programs 


                                     Page 8

         updated programmatic monitoring plans for two of the four grant
         program that received Recovery Act funds.

                                            Table 5
                          ARRA Grant Programs Monitoring Plans
                 FEMA Grant Programs               Anticipated Date of Completion
           Emergency Food and Shelter                     No Date Provided
           Port Security                           Update Issued in November 2009
           Transit Security                        Update Issued in November 2009
           Assistance to Firefighters                        Spring 2010

         According to FEMA officials, the programmatic monitoring plans
         for the Assistance to Firefighters Grant Program are still being
         developed. This grant program provides funds for construction
         and is a new program-type for FEMA. FEMA officials said their
         schedule is to have the monitoring plan completed by the Spring of
         2010 when it will begin to obligate funds. FEMA officials did not
         provide a planned completion date for updating the programmatic
         guidance for the Emergency Food and Shelter Program.

         For the two programs that have updated the programmatic
         monitoring plans, Port Security and Transit Security grants, the
         plans do not address Recovery Act requirements. FEMA’s
         November 2009 program monitoring plan for the Transportation
         Infrastructure Security Branch, which applies to the Transit
         Security and Port Security Recovery Act Grant Programs, did not
         specifically address Recovery Act related requirements. Effective
         Recovery Act monitoring plans should include:

         •	 Ensuring that Recovery Act reporting, transparency, and
            accountability requirements, and general provisions are being
            followed;
         •	 Reviewing grantee activities;
         •	 Testing for grantee data integrity;
         •	 Conducting an adequate number of office-based and onsite
            reviews;
         •	 Developing a risk-based site selection process to decide which
            grantees to review; and,
         •	 Developing program-specific review steps such as steps for
            modifying, upgrading, and constructing nonfederal fire
            stations.

         According to FEMA officials, FEMA is currently in the process of
         approving the Headquarters and Regional Monitoring Plans to

Review of Federal Emergency Management Agency’s Capabilities to Oversee

     American Recovery and Reinvestment Act of 2009 Grant Programs 


                                Page 9

         ensure that they include Recovery Act grants. Until all monitoring
         plans are updated with Recovery Act requirements, FEMA cannot
         evaluate whether recipients used funds for their intended purpose.

         In addition, the Port Security and Transit Security Grant programs
         do not have a formal process to assess a level of risk (high,
         medium, low) for grantees awarded Recovery Act funds. FEMA
         could more effectively select sites to monitor by using a risk
         assessment process. A FEMA official said that grant personnel use
         monitoring tools to assess risks during office-based reviews and
         on-site visits of grantees. The FEMA official also told us that
         grant personnel’s past experiences and frequent interaction with
         grantees can help to identify risks.

         Training

         FEMA can improve its oversight of Recovery Act funds by
         providing grant officials with fraud prevention training, and by
         establishing an internal fraud communication program. This
         training, although not required, could assist grant personnel with
         preventing and detecting fraudulent conduct to ensure recipients
         are not unlawfully profiting from the funds. The Department of
         Justice offers training for grant officials specific to the types of
         fraud that can be committed with Recovery Act funds. Grant
         personnel should also share among themselves ideas and
         experiences regarding fraudulent grantee activity and other
         questionable matters. However, none of the grant programs’
         managers and employees have had this type of fraud training and
         they are not a part of an internal fraud communication program.

         The Emergency Food and Shelter Program’s program officer has
         not received risk assessment training, which would help in
         assessing how the National Board determined which Local Agency
         Providers would be awarded Recovery Act funds. This is of
         particular importance since the Emergency Food and Shelter
         Program managers anticipate approximately 100 new Local
         Agency Providers will receive Recovery Act funds. The training
         would help in evaluating United Way of America’s risk-based
         selection process for deciding which Local Agency Providers
         should receive an onsite monitoring review.

         The Port Security and Transit Security Grant Programs have not
         developed formal guidance for identifying indicators of fraud,
         misuse, or errors in grant funds by grantees. FEMA officials said
         that employees rely on their experience and sound judgment to

Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                Page 10
 

         make such determination. Having this guidance would assist
         employees in determining if funds are being used for their intended
         purpose.

         Access to Tracking System

         Emergency Food and Shelter Program officials do not have direct
         access to United Way of America’s system used to separately track
         all Recovery Act funds. A FEMA official said that while FEMA
         does have access to the website that accounts for Recovery Act
         funds separately, United Way provides reports from the tracking
         system to FEMA only on request. FEMA would benefit from
         direct access to this system to monitor the data being collected and
         tracked from grantees that received Recovery Act funds.

 Recommendations
         We recommend that the Administrator, Federal Emergency
         Management Agency:

         Recommendation #3: Update all financial and programmatic
         monitoring plans as appropriate to ensure grantees are adhering to
         Recovery Act requirements.

         Recommendation #4: Provide training:
         a.	 On fraud awareness and prevention, including the
             establishment of an internal fraud communication program, for
             all grant program employees overseeing the use of Recovery
             Act funds; and
         b.	 On risk assessment for overseeing grantee activities to the
             Emergency Food and Shelter Grant program officer.

         Recommendation #5: Ensure FEMA has direct access to United
         Way of America’s tracking system for monitoring the use of
         Recovery Act funds.

 Management Comments and OIG Analysis
         Management Comments to Recommendation #3: FEMA
         concurred with this recommendation and stated that it has updated
         its Financial Monitoring Plan to include all Recovery Act grant
         requirements. Regarding programmatic monitoring, FEMA is in
         the process of formally updating the plan for the Emergency Food
         and Shelter Program to include the Recovery Act funding, with
         completion planned for the spring of 2010.

Review of Federal Emergency Management Agency’s Capabilities to Oversee

     American Recovery and Reinvestment Act of 2009 Grant Programs 


                                Page 11

         FEMA stated that the Assistance to Firefighter, Port Security, and
         Transit Security Grant Programs will be programmatically
         monitored in accordance with established monitoring protocols by
         staff from FEMA’s Grant Programs Directorate’s Grant
         Development and Administration Division. Monitoring activities
         will include desk monitoring as well as site visits. FEMA also
         stated that the FY 2010 Transportation Infrastructure Security
         Branch Monitoring Plan was finalized during the OIG engagement
         and a copy was provided. This plan includes the programmatic
         monitoring strategy for the Recovery Act Port Security and Transit
         Security Grants.

         OIG Analysis: FEMA’s response satisfies the intent of the
         recommendation with respect to financial monitoring. Regarding
         program monitoring, this recommendation is resolved but will
         remain open pending FEMA providing for each program updated
         programmatic monitoring plans that specifically address Recovery
         Act requirements.

         Management Comments to Recommendation #4: FEMA
         concurred with this recommendation and indicated that in-house
         training, including fraud, waste, and abuse training and refresher
         courses on all updated Recovery Act requirements, has already
         been provided to all Grants Management Specialists and Program
         managers. FEMA has requested that its Office of Chief Counsel
         provide additional targeted assistance and training on fraud
         awareness and prevention to ensure all requirements are met and
         all staff is trained. FEMA also plans to have the Emergency Food
         and Shelter Grant program officer obtain training on risk
         assessment for overseeing grantee activities as soon as possible.

         OIG Analysis: FEMA’s response satisfies the intent of the
         recommendation regarding fraud awareness and prevention
         training. However, additional action is required regarding the
         fraud communication committee and risk assessment training.
         This recommendation is resolved but will remain open pending
         FEMA’s verification that the fraud communications committee and
         risk assessment training has been provided.

         Management Comments to Recommendation #5: FEMA
         concurred with this recommendation and stated that it has taken
         steps to make United Way’s tracking system more visible to
         FEMA program staff. The Emergency Food and Shelter Program


Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                Page 12
 

         database system is being enhanced to allow FEMA read access to
         all data and the ability to view and print reports.

         OIG Analysis: FEMA’s proposed actions satisfy the intent of the
         recommendation. The recommendation is resolved but will remain
         open pending FEMA’s verification that the system is accessible to
         its program staff.




Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                Page 13
 

Appendix A
Purpose, Scope, and Methodology

                     Our objective was to determine whether FEMA has the capability,
                     including processes, internal controls, and personnel, to ensure the
                     effective and efficient use of grant funds made available in the
                     Recovery Act for Emergency Food and Shelter, Public
                     Transportation Security and Railroad Security Assistance, Port
                     Security, and Firefighters Assistance Programs.

                     To accomplish our objective, we:

                     •	 Reviewed laws, regulations, and guidance related to the
                        American Recovery and Reinvestment Act of 2009.
                     •	 Reviewed FEMA’s Recovery Act grant agreement, dated
                        April 9, 2009, for the Emergency Food and Shelter Program.
                     •	 Assessed staffing related to grants management and oversight,
                        including but not limited to financial and programmatic
                        monitoring.
                     •	 Reviewed the department’s program-specific Recovery Act
                        plans, dated May 15, 2009, for the Emergency Food and
                        Shelter, Port Security, Transit Security, and Assistance to
                        Firefighters Grant Programs to determine whether the plans are
                        practical and comprehensive.
                     •	 Reviewed the department’s program-specific Guidance and
                        Application Kits issued on May 29, 2009, for Port Security,
                        Transit Security, and Assistance to Firefighters Grant
                        Programs.

                     During the review, we interviewed officials from FEMA’s Grant
                     Programs Directorate, Disaster Assistance Directorate, and Office
                     of Policy and Program Analysis. We conducted these interviews at
                     FEMA headquarters in Washington, DC.

                     We also evaluated FEMA program-specific Guidance and
                     Recovery Act Plans according to Recovery Act requirements and
                     prudent management principles, which include:

                     •	 Awarding and distributing funds in a prompt, fair, and
                        reasonable manner;
                     •	 Making fund usage and recipients transparent to the public;
                     •	 Reporting public benefits;
                     •	 Mitigating fraud, waste, error, and abuse;
                     •	 Mitigating risk of delays; and
                     •	 Achieving program goals.




            Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                 American Recovery and Reinvestment Act of 2009 Grant Programs 


                                            Page 14
 

Appendix A
Purpose, Scope, and Methodology

                 We conducted our review between April 2009 and June 2009 under
                 the authority of the Inspector General Act of 1978, as amended, and
                 according to the Quality Standards for Inspections issued by the
                 Council of Inspectors General on Integrity and Efficiency.




            Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                 American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                            Page 15
 

Appendix B
Management Comments to the Draft Report


                                                                                U.s. ll.p"""'.'" or 1I"" ..,."d 5<'<"'1')
                                                                                                    1I""..
                                                                                ~OOCSlf""',S\\'
                                                                                "';,"'in¥,on.!X' !(I.l71




                                                                   ~;
                                                                    .
                                                                      FEMA
                                                                     '.," , ,

                                                  Fl, 12 2010


       MEMORANDUM FOR:              Anne L. Richards
                                    Assistant Inspector General for Audits
                                    Office of Inspector General

       FROM:                        DaVidl.Kaufman~.A.G~ Fi>~
                                    Director
                                    Office of Policy and Program Analysis

       SUBJECT:                     Comments on O[G Draft Report, Fcdeml Emerge/Icy Mmwgemelll
                                    Age/ICY's Capabilitics 10 Ol'('I"SCC American Ueco.,e/yallil
                                    Ne;IIl'cstmclll Act of
                                                        of2009
                                                           2009 Cmul Programs

       Thank you for the opportunity to review and comment on the Office of Inspector General's
       (OIG's) subject draft audit report. As the Federal Emergency Management Agency (FEMA)
       works toward refining its programs, the OIG's independent analysis of program pcrfonnance
       greally bencfits our ability to conlinuously improve our activities.

       FEMA concurs with the draft report's five recommendalions but believes that two ofthl.'Se
       rccommendations should not be included in the final rcport, as they have alrcady been
       implcmented. Another two should he revised to refll.'Ct actions already taken. While we will be
       providing corrective action pbns in our 90-day response, we provide the following infonnation
       relative to the five recommendations:

       Recommendation I: Implement II proeess to colle<;t and report infonnation for the Emergency
       Food and Shelter Program on the number of meals providcd, nights of lodging provided, rell! or
       mortgage payments made, and utility payments made to assess how Rel."(}very Act funds are
       assisting communities affected by thc economy.

       Response: This rC'Commcndlllion should not be included in the linal report as it has already been
       implemcnted. A process is in place to eollC'Ct and report this infomlation. Each funding cycle
       (fiscal year), sub-recipients report on the number of meals provided. number of bed nights
       provided, and number of renl, mortgage and utility bills paid with Emergency Food and Shelter
       Program (EFSP) funding as part of their Final Reports to the gTllntcc.

       The data in these repons arc entered into the EFSP database maintained by the grantee's fiscal
       agent (United Way Worldwide) and EFSP uses this infonnation to estimate the total amount of
       goods and services provided with EFSr funding in a phase (fiscal year) of funding.




             Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                  American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                                   Page 16
 

Appendix B
Management Comments to the Draft Report




       Page 2

       Recommendation 2: Ensure grantees are made aware of and comply with required Recovery
       Act and Office of Management and Budget guidance mentioned above.

       Response: This recommendation should not be included in the final report as it has already been
       implemented. FEMA has made grantees aware of required American Recovery and
       Reinvestment Act (ARRA) and Office of Management and Budget (OMB) guidance, including
       all reporting requirements. In fact, 329 of the 333 grant recipients have complied with all
       recipient reporting requirements. The four grant recipients that have not filed reports as required
       by Section 1512 of the ARRA encountered technical difficulties with the reporting site and its
       related registration requirements and are not considered by FEMA to be willful non-filers. None
       of them have begun to draw down the funds under their grants.

       At the time of guidance development, all known ARRA requirements were documented within
       FEMA guidance, except for the ARRA Whistleblower protections, which is addressed in this
       response. At the time of award, each award document stipulated the terms and conditions of the
       award, including the terms and conditions specific to the ARRA-, thus legal1y binding the
       recipient and FEMA to adhere to them.

       FEMA has also held multiple conference calls and training sessions and sent out informational
       bulletins to all grantees, which outlined, in detail, the requirements of ARRA and OMB
       Guidance.

       With respect to the Energy Star™ requirements, we believe the Office of Inspector General is
       referring to the inclusion of the Sustainability and Environmental spreadsheets and instructions
       in the guidance documents. "These spreadsheets and accompanying instructions should not have
       been included in the guidance documents, as they were designed to track compliance with
       Executive Order 13423, which is applicable only to construction of Federal buildings and does
       not extend to buildings constructed by grantees. The AFG, Transit and Port Security program
       offices are informing grantees that while the program offices encourage all grantees to
       incorporate sustainability initiatives in their project to the extent feasible, the grantees are not
       required to fill out the sustainability or environmental worksheets as a condition of funding."

       With respect to the requirements ofOMB's guidance, "Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009" (M-09-15), we maintain that M-09-15
       governs Federal departments' and agencies' implementation of Recovery Act programs and is
       not applicable to grantees' implementation of grant activities.

       With respect to the "environmental and historic preservation" requirements in accordance with
       M-09-15, we maintain that the Assistance to Firefighters Grant guidance document is very clear
       on National Environmental Protection Act requirements.

       Finally, with respect to Recovery Act Section 1553 (ARRA Whistleblower Protection), the
       award packages specifically references Section 1553 of the ARRA. Specific language in the
       award package is as follows:




             Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                  American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                                     Page 17
 

Appendix B
Management Comments to the Draft Report




       Page 3

                Whistleblower ProtlX;tion. Eaeh recipienl or sub-r«:ipient llwarded funds
                made available under the: ARRA shall promptly refer to the FEMA Office
                of Inspector General any credible evidence that a principa1. employee,
                agent, contrnetor, sub-recipient, subcontr.lCtor. or other person has
                submitled a false claim under the False Claims Act or has oommitted II
                criminal or civil violation orlaws pertaining to fraud, oonllict of interest.
                bribery, gratuity. or similar misconduct involving lhosc funds (ARRA
                Sec. 1553). The DHS Office of Inspector General can be reached at
                hltp:llwww.oig.Depanment.gov/fraudlhotlind.

       We have issued a clarification to all grantees that the ARRA Whistlcblower Protection
       provisions were erroneously left out of the: guidance. This clarification shall scrve as an update
       to the applicable program guidance.

       Recommend.lions 3: Upc:!ute nil fimmcial and programm
                                                      programm....tie
                                                                  tie monitoring pl
                                                                                 pl....ns
                                                                                       ns as ..
                                                                                             ..ppropriatc::
                                                                                                ppropriatc:: 10
       cnsW"C grantees are adhering 10 Recovery Act requirements.

       Rnponse: FEMA requests that this recommendation be rc\ised to delete the part concerning the
       Financial Monitoring Plan. FEMA has updated ilS Financial MOllitoring Plan for all RecovCl)'
       Aet grants to include all ARRA requirt'ntCllIS. The FEMA Financial Monitoring plan states:

                To help ensure transparency and accountability for these funds, the Regions llnd HQ
                Operations Branches are required to conduct financial monitoring on applicable ARRA
                awards in FYIO. An ARRA award is considered applicable for monitoring if grant
                activity has commenced. The protocols for conducting financial monitoring activities
                outlined in this document are applicable to all ARRA awards.

                As additional guidance and instructions on ARRA funds arc rcleased from the Offiee of
                Management and Budget (OMB) or other applicablc cntities, FEMA will communicate
                this infonnation 10 the Regions and HQ Operations Branches.

       FEMA is in the process of fonnally updating its programmlltic monitoring pllln for the
       Emergency Food and Shelter Program to includc ARRA funding. Thc completion date is
       planned for spring of 201 0, Extensivc monitoring of thc Emergency Food lind Shelter Program
       is alrcady being conducted. Each month, the grantee holds a monthly meeting, which includes
       all representatives of the National Board for the Emergency Food lind Shelter Program. The
       FEMA program manager attends caeh ofthcsc mcetings and revicws thc financial and
       programmlltic administration of the program, including cUITentllllocations and outlays, budget
       updatcs, compliance and fraud issues, and IIny other policy llnd funding activities underway for
       the accurate and suc<;cssful implementation of the program.

       The Fire Station ConstruClion, Port Security, and Transit St:eurity grants will be
       programmatically monitored in accordan<;e with established monitoring protocols by staff from




                Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                                       Page 18
 

Appendix B
Management Comments to the Draft Report




       Page 4

       FEMA's Grant Programs Directorate's Grant Development and Administration Division.
       Monitoring activities will include desk monitoring as well as site visits.

       The FY 2010 Transportation Infrastructure Security Branch (TISB) Monitoring Plan was
       finalized during this OIG engagement and a copy was provided. This plan includes the
       programmatic monitoring strategy for the ARRA Port Security and Transit Security grants. Its'
       successful implementation is dependent upon funding in the FY 2010 budget.

       Recommendation 4: Provide training:
            a. On fraud awareness and prevention, including the establishment of an internal fraud
               communication program, for all grant program employees overseeing the use of
               Recovery Act funds; and
            b. On risk assessment for overseeing grantee activities to the Emergency Food and
               Shelter Grant program officer.

       Response: Recommendation 4a should not be included in the final report because it has already
       been implemented. FEMA provided in-house training to all Grants Management Specialists and
       Program Managers on July 23,2009, and October 8, 2009, which included fraud, waste, and
       abuse training and refresher courses on all updated ARRA requirements. FEMA has requested
       additional targeted assistance and training on fraud awareness and prevention from FEMA's
       Office of Chief Counsel to ensure all requirements are met and all staff is trained.

       With respect to Recommendation 4b, FEMA concurs with this recommendation and plans to
       have the Emergency Food and Shelter Grant program officer obtain training on risk assessment
       for overseeing grantee activities as soon as possible.

       Recommendation 5: Ensure FEMA has direct access to United Way of America's tracking
       system for monitoring the use of Recovery Act funds.

       Response: FEMA concurs with this recommendation. Over the last year, FEMA has taken steps
       to make the fiscal agent's (United Way of America, now called United Way Worldwide)
       tracking system more visible to FEMA program staff. The EFSP database system is being
       enhanced to allow FEMA read access to all data and the ability to view and print reports.
       Currently, all information on the use ofEFSP funds under the Recovery Act Way Worldwide is
       available to FEMA upon request from United Way Worldwide.

       Thank you again for the opportunity to comment on this draft report and we look forward to
       working with you on other issues as we both strive to improve FEMA.




                Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                     American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                                   Page 19
 

Appendix C
Major Contributors to This Report


                     Michael Siviy, Director
                     Adrian Dupree, Supervisory Auditor
                     Christine Alvarez, Program Analyst
                     Julie Wong, Auditor




            Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                 American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                            Page 20
 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




            Review of Federal Emergency Management Agency’s Capabilities to Oversee
 

                 American Recovery and Reinvestment Act of 2009 Grant Programs 
 


                                            Page 21
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
